Audit Report




OIG-12-067
SAFETY AND SOUNDNESS: Failed Bank Review of Carolina
Federal Savings Bank, Charleston, South Carolina


August 7, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                    DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                        August 7, 2012


      OIG-12-067

      MEMORANDUM FOR THOMAS J. CURRY
                     COMPTROLLER OF THE CURRENCY

      FROM:                  Susan L. Barron /s/
                             Director, Banking Audits

      SUBJECT:               Failed Bank Review of Carolina Federal Savings Bank,
                             Charleston, South Carolina


      This memorandum presents the results of our review of the failure of Carolina
      Federal Savings Bank (Carolina), located in Charleston, South Carolina, and the
      supervision exercised over the institution. The former Office of Thrift Supervision
      (OTS) regulated Carolina until July 21, 2011, when the Office of the Comptroller of
      the Currency (OCC) assumed regulatory responsibility for federal savings
      associations pursuant to P.L. 111-203.

      Carolina was chartered in August 1960 as a federal credit union under the name of
      Sacred Heart of Charleston, S.C. Federal Credit Union. In August 1999, the credit
      union converted its charter to a thrift and changed its name to Carolina Federal
      Savings Bank. At the time of the failure, Carolina operated one main office and one
      branch in Charleston County, South Carolina. OCC closed Carolina and appointed
      the Federal Deposit Insurance Corporation (FDIC) as receiver on June 8, 2012. As
      of March 31, 2012, Carolina had approximately $54.4 million in total assets. As of
      June 30, 2012, FDIC estimated the loss to the Deposit Insurance Fund to be
      $17.1 million.

      Because the loss to the Deposit Insurance Fund is less than $150 million, as set
      forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
      of the failure of Carolina that was limited to (1) ascertaining the grounds identified
      by OCC for appointing the FDIC as receiver and (2) determining whether any
      unusual circumstances exist that might warrant a more in-depth review of the loss.
      In performing our review we (1) examined documentation related to the
      appointment of FDIC as receiver, (2) reviewed OTS and OCC reports of
      examination for the 5-year period before the bank’s failure, and (3) interviewed
      OCC personnel. We performed our field work during June 2012.
OIG-12-067
Page 2

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.


Causes of Carolina’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced a substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank incurred or was likely to incur losses that would deplete all or
substantially all of its capital, and there was no reasonable prospect for it to become
adequately capitalized without federal assistance; and (3) the bank was
undercapitalized, and failed to submit an acceptable capital restoration plan within the
time prescribed.

The primary causes of Carolina’s failure were its (1) concentration in subprime single-
family mortgage loans and commercial real estate loans; (2) weak credit administration
and credit management practices; and (3) ineffective board of directors and
management. Despite repeated criticisms by OTS and then OCC, Carolina’s board and
management did not adequately address weaknesses related to concentration risk
management for its commercial real estate loans, problem loan identification and
administration, underwriting of loans and problem loan modifications, allowance for
loan and lease losses and methodology, and real estate owned administration.
Deficient board and management, combined with a significant downturn in the real
estate market, resulted in deterioration in the bank’s asset quality and sizeable
operating losses, which ultimately led to Carolina’s failure.


Conclusion
Based on our review of the causes of Carolina’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. In making this determination, we took into consideration that the federal
savings association functions of OTS, Carolina’s regulator until July 2011,
transferred to OCC. We provided a draft of this memorandum to OCC management
for comment. In its response, OCC stated that it agreed with our conclusion as to
the causes of the failure of Carolina and that it had no concerns with our
determination that an in-depth review of the bank’s failure is not warranted. The
OIG-12-067
Page 3

response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-12-067

       Attachment 1
Management Response
                                                       OIG-12-067

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
